        DEPARTMENT OF HEALTH &- HUMAN SERVICES 	                                            Office of Inspector General


                                                                                            Washington, D.C. 20201



                                                     DEC 022010


TO: 	            Donald M. Berwick, M.D.
                 Administrator
                 Centers for Medicare & Medicaid Services

                                  /S/
FROM:            Stuart Wright
                 Deputy Inspector General
                   for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Market Shares ofMail Order Diabetic Testing
           Strips,OEI-04-10-00130


This memorandum report provides information on the types of mail order diabetic testing strips
associated with Medicare claims for the 3-month period ending December 2009. Section
lS4(d)(3)(B) of the Medicare Improvements for Patients and Providers Act (MIPPA) requires the
Office of Inspector General (OIG) to complete a study to determine market shares of diabetic
testing strips before 2011. 1,2

SUMMARY

Medicare covers diabetic testing strips provided by mail order suppliers and local pharmacies or
supplier storefronts. According to the Centers for Medicare & Medicaid Services (CMS),
62 percent of diabetic testing strips were provided to Medicare beneficiaries via mail order in
2009. 3

The Medicare Prescription Drug, Improvement, and Modernization Act (MMA) requires CMS to
phase in, with several rounds of bidding, a durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS) Competitive Bidding Program. Under this program, suppliers compete to
become Medicare contract suppliers in certain geographic areas for selected DMEPOS items,
including mail order diabetic testing strips. The payment amolmts resulting from the accepted
bids will replace the Medicare fee schedule ammmts in these areas.




t Market share is the percentage of total sales attributable to a particular product in a single industry. 

2 P.L. 110-275, Social Security Act, § 1847(b)(10)(B), 42 U.S.C. § 1395w-3(b)(10)(B). 

3 Medicare Program; Payment Policies Under the Physician Fee Schedule and Other Revisions to Part B for CY 

2011, CMS-1503-FC (Nay. 2, 2010 display date). Accessed at http://www.ofr.goY/OFRlJp]oad/OFRQill.aJ2010­
27969 PLpdf on November 4,2010. 

Page 2 – Donald M. Berwick, M.D.


The Competitive Bidding Program does not currently include diabetic testing strips purchased at
a local pharmacy or supplier storefront (i.e., nonmail order). Beneficiaries who do not wish to
order their diabetic testing strips through the mail may continue to receive their preferred type
from a local pharmacy or supplier storefront for the fee schedule amount.

Initial rounds of bidding did not require that winning suppliers provide a specific number or
percentage of diabetic testing strip types available on the market. However, the MIPPA requires
that CMS award Competitive Bidding Program contracts for mail order diabetic testing strips to
suppliers who provide at least 50 percent, by volume, of all types of mail order diabetic testing
strips (i.e., the MIPPA 50-percent requirement). 4

We determined the Medicare market shares for diabetic testing strip types associated with a
random sample of Medicare claims for the 3-month period ending December 2009. Our sample
of 1,210 claims was selected from a population of approximately 574,000 claims for mail order
diabetic testing strips provided to beneficiaries during this period. We projected our sample data
to the population of mail order diabetic testing strips to estimate the Medicare market shares.

We found that suppliers submitted claims for at least 75 types of mail order diabetic testing strips
for the 3-month period ending December 2009. Two types of diabetic testing strips accounted
for approximately 26 percent of the Medicare mail order market share, 7 types of diabetic testing
strips accounted for approximately 50 percent of the Medicare mail order market share, and 19
types accounted for approximately 81 percent. CMS may consider these data when determining
whether future rounds of suppliers’ mail order diabetic testing strip bids comply with the MIPPA
50-percent requirement.

BACKGROUND

Diabetes is a chronic disease in which a person has a high blood sugar (i.e., glucose) level either
because the body does not produce enough insulin or cells do not respond properly to the insulin
that the body does produce. 5 Diabetes may be managed through a variety of methods, including
healthy eating, physical activity, and insulin injections. 6 If diabetics do not properly manage
their glucose levels, medical complications (e.g., hypoglycemia, cardiovascular disease, and
retinal damage) may occur.

Diabetes disproportionately affects older adults. Approximately 23 percent of individuals ages
60 and older reported having diabetes in 2007, while only 8 percent of individuals of all ages
reported having this disease. 7 Medicare covers services and testing supplies to help beneficiaries
with diabetes manage their condition.


4
  MIPPA, P.L. 110-275 § 154(d)(3)(A), Social Security Act, § 1847(b)(10)(A), 42 U.S.C. § 1395w-3(b)(10)(A).
5
  National Institutes of Health (NIH), Diabetes Overview: What is Diabetes? Accessed at
http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm on March 11, 2010.
6
  NIH, Diabetes Overview: How is Diabetes Managed? Accessed at
http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm#managed on March 11, 2010.
7
  The most current data available are from 2007. Additionally, data are not available for individuals ages 65 and
older. CMS, Diabetes Self Management Overview. Accessed at http://www.cms.hhs.gov/DiabetesSelfManagement/
on March 23, 2010.

OEI-04-10-00130         Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 3 – Donald M. Berwick, M.D.


Diabetics may use small, hand-held meters to test the concentration of glucose in their blood.
Each time that they test their glucose levels, individuals insert a diabetic testing strip into their
meter. A diabetic testing strip is a small, thin, one-time-use piece of plastic on which a sample
of blood is placed after pricking the skin. The meter’s reading of an individual’s glucose level
provides information required for individuals to manage their diabetes. 8 Diabetics may need to
perform glucose tests several times a day to assist them in maintaining their glucose at the
appropriate level.

Physicians’ prescriptions must indicate the number of times per day a diabetic Medicare
beneficiary should test his or her blood glucose level. 9, 10 Because some beneficiaries should test
their glucose more frequently than others, the number of diabetic testing strip boxes per
Medicare claim varies. 11 Mail order suppliers submit one Medicare claim for a beneficiary’s
3-month supply of diabetic testing strips. 12 Each claim indicates the number of boxes provided
to the beneficiary for the 3-month period.

Suppliers submit claims using Healthcare Common Procedure Coding System (HCPCS) codes to
receive Medicare reimbursement. Medicare claims for diabetic testing strips are billed using
HCPCS code A4253. The modifier KL (i.e., A4253 KL) designates diabetic testing strips
provided via mail order. 13

Medicare determines the highest dollar amount that suppliers may be reimbursed for each
HCPCS code (fee schedule amount). Medicare pays 80 percent of the fee schedule amount and
the beneficiary is responsible for the remaining 20 percent. Medicare reimburses suppliers for
diabetic testing strips based on fee schedule amounts, which vary by State. The average 2009 fee
schedule amount for mail order diabetic testing strips was $32.50 per box.

The Competitive Bidding Program and Diabetic Testing Strips
The MMA required CMS to phase in, with several rounds of bidding, the Competitive Bidding
Program. 14 The payment amounts resulting from the Competitive Bidding Program will replace
the fee schedule amounts for selected DMEPOS items (including mail order diabetic testing




8
  Diabetes self-management may include insulin injections, planned meal times, and medication.
9
  CMS, Local Coverage Determination for Glucose Monitors (L11530). Accessed at
http://www.medicarenhic.com/dme/medical_review/mr_lcds/mr_lcd_current/L11530_2008-10-01_PA_2008-10.pdf
on September 1, 2010.
10
   Physicians do not prescribe a specific type of diabetic testing strip for a beneficiary’s use.
11
   Medicare provides coverage for up to 100 testing strips per month for insulin-dependent beneficiaries and up to
100 testing strips every 3 months for noninsulin-dependent beneficiaries. Medicare allows additional testing strips if
deemed medically necessary and documented in physician records. CMS, MLN Matters Number SE1008. Accessed
at http://www.cms.gov/MLNMattersArticles/downloads/SE1008.pdf on August 16, 2010.
12
   CMS, Local Coverage Determination for Glucose, loc. cit.
13
   “Mail order” refers to DMEPOS items ordered by phone, email, internet, or mail, and delivered to Medicare
beneficiaries by common carriers like the U.S. Postal Service, Federal Express, or United Parcel Service. Mail order
does not include items purchased from a local pharmacy or supplier storefront. CMS, MLN Matters Number
MM5641. Accessed at http://www.cms.gov/MLNMattersArticles/downloads/mm5641.pdf on October 26, 2010.
14
   MMA, P.L. 108-173 § 302(b)(1), Social Security Act, § 1847, 42 U.S.C. § 1395w-3.

OEI-04-10-00130          Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 4 – Donald M. Berwick, M.D.


strips) in certain Competitive Bidding Areas (CBA). 15 The selected DMEPOS items are
generally high-cost and high-volume DMEPOS items that have a high savings potential under
the Competitive Bidding Program. 16

CMS uses bids submitted by DMEPOS suppliers to determine the competitive bidding payment
amounts. Bids are evaluated based on suppliers’ eligibility, their financial stability, and the bid
price. 17 Contracts are awarded to the suppliers who generally offer lower prices and meet
applicable quality and financial standards. 18

Medicare covers diabetic testing strips provided by mail order contract suppliers and local
pharmacies or supplier storefronts. The Competitive Bidding Program does not currently include
nonmail order diabetic testing strips (i.e., those purchased at a local pharmacy or supplier
storefront). Once the Competitive Bidding Program goes into effect for mail order diabetic
supplies, beneficiaries may still receive their diabetic testing strips from a local pharmacy or
supplier storefront for the fee-schedule price, if they do not wish to order them through the mail.

Round 1 of the Competitive Bidding Program and the Round 1 Rebid
Suppliers began submitting bids for Round 1 of the Competitive Bidding Program on May 15,
2007. Contracts between CMS and suppliers became effective on July 1, 2008. Under contracts
awarded to suppliers in Round 1, Medicare payments decreased by an average of 26 percent
across all selected DMEPOS categories. 19

Two weeks after the Round 1 contracts between CMS and suppliers became effective, Congress
enacted the MIPPA, which instituted the following changes to the Competitive Bidding Program.
The MIPPA:

      terminated contracts awarded to suppliers in Round 1;

15
   A CBA is defined by specific ZIP Codes related to Metropolitan Statistical Areas, which are areas designated by
the Office of Management and Budget that include major cities and the suburban areas surrounding them. The
10 CBAs included in Round 1 were Charlotte (Charlotte-Gastonia-Concord, North Carolina and South Carolina);
Cincinnati (Cincinnati-Middletown, Ohio, Kentucky, and Indiana); Cleveland (Cleveland-Elyria-Mentor, Ohio);
Dallas (Dallas–Fort Worth–Arlington, Texas); Kansas City (Kansas City, Missouri and Kansas); Miami
(Miami–Fort Lauderdale–Miami Beach, Florida); Orlando (Orlando-Kissimmee, Florida); Pittsburgh (Pittsburgh,
Pennsylvania); Riverside (Riverside–San Bernardino–Ontario, California); and San Juan
(San Juan–Caguas–Guaynabo, Puerto Rico). Metropolitan Statistical Areas, Competitive Bidding Areas, and Zip
Codes. Accessed at http://www.cms.hhs.gov/DMEPOSCompetitiveBid/01a_MSAs_and_CBAs.asp on February 23,
2010.
16
   CMS, General Overview of the Final Rule for Competitive Acquisition for Certain Durable Medical Equipment,
Prosthetics, Orthotics, and Supplies. Accessed at
 https://www.cms.gov/DMEPOSCompetitiveBid/Downloads/DMEPOSRegSumm.pdf on
October 14, 2010; 73 Fed. Reg. 17992, 18010 (Apr. 10, 2007).
17
   Overview of the DMEPOS Competitive Bidding Program. Accessed at
http://www.dmecompetitivebid.com/palmetto/cbic.nsf/DocsCat/Home on October 8, 2010.
18
   CMS, CMS Media Release Database Fact Sheet. Details for: Expansion of Competitive Bidding Program for
Durable Medical Equipment, Prosthetics, Orthotics, and Supplies. Accessed at
http://www.cms.hhs.gov/apps/media/press/factsheet.asp?Counter=2812 on March 11, 2010.
19
   CMS, Medicare to Save Average Of 26% for Some Durable Medical Equipment, Prosthetics, Orthotics, and
Supplies in Selected Areas. Accessed at http://www.cms.gov/apps/media/press/release.asp?Counter=2996 on
October 22, 2010.

OEI-04-10-00130         Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 5 – Donald M. Berwick, M.D.


      required CMS to repeat the Round 1 competition (i.e., Round 1 Rebid) in 2009; and

      instituted the MIPPA 50-percent requirement for mail order diabetic testing strips in
        rounds subsequent to the Round 1 Rebid. 20

The MIPPA also reduced the 2009 fee schedule amounts by 9.5 percent for all DMEPOS
included in Round 1 to offset the estimated cost savings lost by the delay in implementing
competitive bidding payment amounts. 21

The Round 1 Rebid of the Competitive Bidding Program began in October 2009 and included
nine CBAs. 22 CMS announced the winning amounts for the Round 1 Rebid on July 1, 2010, and
announced the winning contract suppliers on November 3, 2010. Winning suppliers will begin
providing competitively-bid DMEPOS items to beneficiaries in the nine CBAs on January 1,
2011.

Under the Round 1 Rebid of the Competitive Bidding Program, CMS estimated that payment
reductions compared to the 2009 Medicare fee schedule amount averaged 32 percent. 23
Medicare payments for mail order diabetic supplies, which include diabetic testing strips,
decreased by an average of 56 percent under the Round 1 Rebid. 24 Medicare payments for mail
order diabetic testing strips range from $13.88 to $15.62 per box in the nine CBAs. 25

The MIPPA requires that, in rounds subsequent to the Round 1 Rebid of the Competitive
Bidding program, contracts for mail order diabetic testing strips be awarded to suppliers who
provide at least 50 percent, by volume, of all types of diabetic testing strips. 26 This 50-percent
requirement is intended to ensure that most beneficiaries can receive their preferred type of
diabetic testing strips under the Competitive Bidding Program. 27 Further, the MIPPA
section 154(d)(3)(B) requires OIG to complete a study to determine the market share of diabetic
testing strip types and to submit it to the Secretary of Health & Human Services (Secretary)
before 2011.
20
   The 50-percent requirement did not apply to suppliers’ bids in Round 1 or the Round 1 Rebid.
21
   CMS, Medicare Reopens Competitive Bidding Program for Medical Equipment and Supplies, October 21, 2009.
Accessed at http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=3535 on February 22, 2010. This
reduction resulted in the average 2009 fee schedule amount of $32.50 per box of mail order diabetic testing strips.
22
   Puerto Rico was not included in the Round 1 Rebid.
23
   CMS, Medicare Announces the Single Payment Amounts for the Round 1 Rebid of the Medicare DMEPOS
Competitive Bidding Program. Accessed at
https://www.cms.gov/DMEPOSCompetitiveBid/01A1_Announcements_and_Communications.asp on October 8,
2010.
24
   DMEPOS Competitive Bidding - Round 1 Rebid - Weighted Average Savings. Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Weighted_Average_Savings.pdf/$FIle/Weighted_Avera
ge_Savings.pdf?Open&cat=Suppliers~Single Payment Amounts on October 14, 2010.
25
   Single Payment Amounts Per CBA. Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/SPA_Mail-Order_Diabetic.pdf/$FIle/SPA_Mail-
Order_Diabetic.pdf?Open&cat=Suppliers~Single Payment Amounts on October 14, 2010.
26
   Specifically, the MIPPA stipulates that suppliers provide at least “50 percent (or such higher percentage as the
Secretary may specify)” of all diabetic testing strips “in the aggregate and taking into account volume for the
different products.” MIPPA section 154(d)(3)(A).
27
   75 Fed. Reg. 40040, 40214 (July 13, 2010). Accessed at http://edocket.access.gpo.gov/2010/pdf/2010-15900.pdf
on August 19, 2010.

OEI-04-10-00130         Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 6 – Donald M. Berwick, M.D.


METHODOLOGY

Data Collection
We identified the population of fee-for-service Medicare claims from CMS’s National Claims
History Durable Medical Equipment Standard Analytical File. To identify the beneficiaries
associated with each claim, the claims were matched with the CMS Beneficiary Enrollment
Database. Then, we selected a simple random sample of 1,210 of the 573,779 Medicare claims
for mail order diabetic testing strips with a December 2009 through date of service. 28

We sent a documentation request to the 173 suppliers associated with the 1,210 claims in our
sample. We asked suppliers to indicate the type (model and manufacturer) of diabetic testing
strips they provided to the Medicare beneficiary associated with each claim and to submit
relevant documentation (e.g., packing slips, testing strip invoices). 29

We received responses from suppliers associated with 1,207 of the 1,210 claims in our sample,
yielding a 99.8-percent response rate. Two suppliers, responsible for three total claims in our
sample, did not respond to the documentation request. 30 We will forward information on these
nonresponding suppliers to CMS under separate cover.

Data Analysis
We reviewed claims data, supplier responses to the documentation request, and the
supplier-provided documentation to determine the quantity and type of mail order diabetic
testing strips associated with each claim in our sample. Each claim in our sample contained
between 1 and 16 boxes, and data for the 1,207 claims provides information about 4,736 boxes
of diabetic testing strips. 31

Ten suppliers (5.8 percent) provided documentation that did not match the Medicare claims data.
We classified these discrepancies into two categories: claims data that indicated that the supplier
billed Medicare for more boxes of diabetic testing strips than reflected in the supplier-provided
documentation, or claims data that indicated that the supplier billed Medicare for fewer boxes of
diabetic testing strips than reflected in the supplier-provided documentation.

Fifteen claims in our sample had one of these two categories of discrepancies. 32 In these cases,
we based our analysis on the data in the supplier documentation. We will forward discrepancies
between supplier documentation and claims data to CMS under separate cover.


28
   Prior to selecting our sample on May 6, 2010, we analyzed claims data by through date of service over a 2-year
period (February 2008 through February 2010) and determined that December 2009 had the most recent and
complete claims data for mail order diabetic testing strips. The through date of service field on the claim indicates
the date on which beneficiaries will exhaust their 3-month supply of diabetic testing strips, if used at the frequency
prescribed by their physicians.
29
   We contacted suppliers up to three times to obtain this information.
30
   These suppliers’ Medicare claims were associated with 30 boxes of diabetic testing strips in our sample.
31
   Most claims (90.1 percent) contained one to six boxes.
32
   For two claims, documentation indicates suppliers billed Medicare for more boxes than they provided to
beneficiaries. For 13 claims, documentation indicates suppliers billed Medicare for fewer boxes than they provided
to beneficiaries.

OEI-04-10-00130          Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 7 – Donald M. Berwick, M.D.


We categorized the types of diabetic testing strips by model and manufacturer. We accounted
for the volume of each type by determining the total number of 50-count boxes of each type of
diabetic testing strip and the percentage of each type across all boxes. We projected our sample
data to the population of mail order diabetic testing strips to estimate the Medicare market shares
of mail order diabetic testing strip types.

Limitations
Suppliers have 1 year to submit claims to CMS. Types of diabetic testing strips associated with
claims submitted after May 6, 2010, the date we selected our sample, are not included in our
sample.

Standards
This review was conducted in accordance with the Quality Standards for Inspections approved
by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Suppliers Submitted Claims for at Least 75 Types of Mail Order Diabetic Testing Strips
for the 3-Month Period Ending December 2009
At least 75 types of diabetic testing strips from 171 suppliers were associated with mail order
claims for the 3-month period ending December 2009.

Two types of diabetic testing strips accounted for approximately 26 percent of the Medicare mail
order market share, 7 types of diabetic testing strips accounted for approximately 50 percent of
the Medicare mail order market share, and 19 types accounted for approximately 81 percent.

Table 1 lists the top 19 types of mail order diabetic testing strips associated with Medicare claims
for the 3-month period ending December 2009. See Appendix A for a complete alphabetical
listing of all 75 types. Appendix A provides the model, manufacturer, percentage of market
share, and 95-percent confidence intervals for market share for each diabetic testing strip type.




OEI-04-10-00130      Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 8 – Donald M. Berwick, M.D.

Table 1: Top 19 Mail Order Diabetic Testing Strip Types Associated With Medicare
Claims for the 3-Month Period Ending December 2009
                                Model                                        Manufacturer        Percentage of
                                                                                                 Market Share

                  One Touch Ultra                                                   Lifescan                  14.9

                  Ascensia Contour                                                    Bayer                  11.1

                  Freestyle Lite                                                      Abbott                   7.3

                  Ascensia Breeze 2                                                   Bayer                    5.0

                  AccuCheck Aviva                                                     Roche                    4.8

                  Medisense Optium                                                    Abbott                   4.5

                  AccuCheck Compact                                                   Roche                    4.1

                  Embrace                                                     Omnis Health                     4.0

                  Ascensia Contour TS                                                 Bayer                    3.3

                  Liberty                                                         Agamatrix                    3.1

                  True Balance                                           Home Diagnostics                      3.0

                  Wavesense Presto                                                Agamatrix                    2.4

                  Prodigy Autocode                                      Diagnostic Devices                     2.3

                  Freestyle                                                           Abbott                   2.1

                  Liberty 2                                              Home Diagnostics                      1.9

                  TrueTrack                                              Home Diagnostics                      1.9

                  Companion                                                   Omnis Health                     1.8

                  Advocate Redi-Code                           Diabetic Supply of Suncoast                     1.8

                  True Read                                              Home Diagnostics                      1.6

                            Total                                                                             80.9
                  Source: OIG analysis of supplier documentation and Medicare HCPCS code A4253 KL claims data for the
                  3-month period ending December 2009.


CONCLUSION

Suppliers submitted claims for at least 75 types of mail order diabetic testing strips for the
3-month period ending December 2009. Two types of diabetic testing strips accounted for
approximately 26 percent of the Medicare mail order market share, 7 types of diabetic testing
strips accounted for approximately 50 percent of the Medicare mail order market share, and
19 types accounted for approximately 81 percent. CMS may consider these data when
determining whether future rounds of suppliers’ mail order diabetic testing strip bids comply
with the MIPPA 50-percent requirement.

This memorandum report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide them
within 60 days. Please refer to report number OEI-04-10-00130 in all correspondence.


OEI-04-10-00130             Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 9 – Donald M. Berwick, M.D.

Appendix A

Market Share Estimates and Their 95-Percent Confidence Intervals for 75 Types of Mail Order Diabetic Testing Strips


Model                                                   Manufacturer      Percentage of        95-Percent Confidence
                                                                           Market Share      Interval for Market Share

AccuCheck Active                                               Roche               0.93                       0.49–1.76

AccuCheck Aviva                                                Roche               4.76                       3.50–6.42

AccuCheck Comfort Curve                                        Roche               0.87                       0.37–1.99

AccuCheck Compact                                              Roche               4.12                       3.00–5.62

AccuCheck Compact Plus                                         Roche               0.44                       0.19–1.04

Acura                                                  US Diagnostics              0.30                       0.07–1.19

Advance Intuition                                               Arkay              0.13                       0.02–0.89

Advocate                                   Diabetic Supply of Suncoast             0.63                       0.30–1.34

Advocate                                                      Playtex              0.04                       0.01–0.30

Advocate Duo                               Diabetic Supply of Suncoast             0.21                       0.07–0.68

Advocate Redi-Code                         Diabetic Supply of Suncoast             1.78                       1.13–2.78

Ascensia Auto Disc                                              Bayer              0.51                       0.23–1.12

Ascensia Breeze 2                                               Bayer              5.01                       3.75–6.65

Ascensia Contour                                                Bayer             11.10                      9.24–13.25

Ascensia Contour TS                                             Bayer              3.28                       2.36–4.52

Ascensia Elite                                                  Bayer              0.17                       0.05–0.56

Bionime                                                       Bionime              0.47                       0.20–1.09

Clever Check                                       Simple Diagnostics              1.08                       0.61–1.89

Clever Check Voice                                 Simple Diagnostics              0.72                       0.34–1.52

Clever Choice                                      Simple Diagnostics              0.17                       0.04–0.79

Companion                                                        Apex              0.38                       0.14–1.03

Companion                                               Omnis Health               1.82                       1.14–2.88

Control                                                US Diagnostics              0.21                       0.07–0.59

Easy Check                                     Home Aide Diagnostics               1.35                       0.76–2.40

Easy Gluco                                             US Diagnostics              0.80                       0.38–1.67

Easy Max                                        ESP Bio Technologies               0.04                       0.01–0.30

Easy Max                                Oak Tree International Holding             0.63                         0.30–1.33
                                                                                             continued on next page




OEI-04-10-00130           Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 10 – Donald M. Berwick, M.D.

Appendix A

Market Share Estimates and Their 95-Percent Confidence Intervals for 75 Types of Mail Order Diabetic Testing Strips
(Continued)

Model                                                   Manufacturer      Percentage of         95-Percent Confidence
                                                                           Market Share       Interval for Market Share

Easy Plus                                       Home Aide Diagnostics               0.36                      0.11–1.16

Eclipse                                                         Infopia             0.47                      0.20–1.09

Element                                                         Infopia             0.97                      0.51–1.86

Embrace                                                         Infopia             0.08                      0.01–0.60

Embrace                                                  Omnis Health               4.02                      2.93–5.47

Embrace Companion                                        Omnis Health               0.08                      0.02–0.34

Evencare                                            Medline Industries              0.08                      0.01–0.60

Evolution                                                       Infopia             0.38                      0.13–1.08

EZ-Smart                                              VIP International             0.04                      0.01–0.30

Freestyle                                                       Abbott              2.09                      1.30–3.34

Freestyle Flash                                                 Abbott              0.11                      0.01–0.75

Freestyle Lite                                                  Abbott              7.32                      5.77–9.21

Glucocard 01 Sensor                                              Arkay              0.08                      0.02–0.34

GlucoCom                                                   Cardiocom                0.13                      0.02–0.89

GlucoCom                                                    GlucoCom                0.08                      0.02–0.34

Infinity                                               US Diagnostics               0.30                      0.10–0.87

Liberty                                                     Agamatrix               3.09                      2.14–4.41

Liberty 2                                           Home Diagnostics                1.90                      1.17–3.07

Maxima                                                 US Diagnostics               0.80                      0.41–1.57

Medisense Optium                                                Abbott              4.46                      3.29–6.01

Nova Max                                              Nova Biomedical               1.46                      0.86–2.47

One Touch                                                     Lifescan              0.38                      0.14–1.03

One Touch Select                                              Lifescan              0.76                      0.40–1.46

One Touch Sure Step                                           Lifescan              0.08                      0.01–0.60

One Touch Ultra                                                  Bayer              0.04                      0.01–0.30

One Touch Ultra                                               Lifescan            14.88                    12.61–17.44

One Touch Ultra 2                                             Lifescan              0.51                       0.21–1.20
                                                                                             continued on next page




OEI-04-10-00130          Medicare Market Shares of Mail Order Diabetic Testing Strips
Page 11 – Donald M. Berwick, M.D.

Appendix A

Market Share Estimates and Their 95-Percent Confidence Intervals for 75 Types of Mail Order Diabetic Testing Strips
(Continued)

Model                                                             Manufacturer       Percentage of                        95-Percent
                                                                                      Market Share             Confidence Interval for
                                                                                                                        Market Share

One Touch Ultra Smart In Duo                                           Lifescan                  0.04                          0.01–0.30

Perfect 2                                                          GlucoPerfect                  0.02                          0.00–0.15

Precision Xtra                                                           Abbott                  0.04                          0.01–0.30

Precision Xtra                                                       Medisense                   0.04                          0.01–0.30

Prestige Smart System                                         Home Diagnostics                   0.21                          0.05–0.86

Prodigy Advance                                              Diagnostic Devices                  0.08                          0.01–0.60

Prodigy Autocode                                             Diagnostic Devices                  2.33                          1.55–3.46

Protégé                                                             Progressive                  0.13                          0.03–0.54

SmartTest                                                           Progressive                  0.08                          0.01–0.60

Sure Classic                                          Specialty Medical Supplies                 0.25                          0.06–1.01

SureEdge                                              Specialty Medical Supplies                 0.25                          0.09–0.71

True Balance                                                  Home Diagnostics                   3.00                          2.06–4.35

True Balance                                                         McKesson                    0.04                          0.01–0.30

True Read                                                     Home Diagnostics                   1.61                          1.00–2.58

TrueTrack                                                     Home Diagnostics                   1.86                          1.17–2.93

TrueTrack                                                              Invacare                  0.08                          0.01–0.60

Ultratrak Pro                                                Vertex Diagnostics                  0.13                          0.02–0.89

Voice Prodigy                                               Diagnostics Devices                  0.38                          0.12–1.22

Wavesense Amp                                                         Agamatrix                  0.08                          0.01–0.60

Wavesense Keynote                                                     AgaMatrix                  0.13                          0.02–0.89

Wavesense Presto                                                      Agamatrix                  2.41                          1.60–3.62

Total                                                                                        100.00*
Source: Office of Inspector General analysis of supplier documentation and Medicare HCPCS code A4253 KL claims data for the 3-month period
ending December 2009.

* Column does not sum to total because of rounding.




OEI-04-10-00130                Medicare Market Shares of Mail Order Diabetic Testing Strips
